No. 20-7438

IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER STEGAWSKI - PETITIONER
vs,
UNITED STATES OF AMERICA - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI REHEARING TO

THE SUPREME COURT OF THE UNITED STATES Denial of Certiorari

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

CHRISTOPHER STEGAWSKI, pro se
REG. 58010-060
FCI Satellite Camp
P.O.Box 6001, Ashland, KY 41105

JUL 1 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

IN THE SUPREME COURT OF THE UNITED STATES

CHRISTOPHER STEGAWSKI

)

Case No. 20-7438

' CERTIFICATION Re: GROUNDS FOR REHEARING
I, Christopher Stegawski, certify that the grounds are limited
to intervening circumstances of substantial and controlling
effect.
Substantial ground not previously presented concerns attached
new evidence motion regarding evidence of new disease,
Fibromyalgia scioto, cause of massive opiates use, and mortality
in range of COVID-19 epidemic. The new .evidence is over 14.000
federal cases for disability coverage of people suffering from
Fibromyalgia or Fibromyalgia scioto. Federal judges describe the
disease and patients suffering from it.

Respectfully submitted,

Christopher Stegawski

July Zu 2021

IN THE SUPREME COURT OF THE UNITED STATES

CHRISTOPHER STEGAWSKI

)

Case No. 20-7438

CERTIFICATION
I, Christopher Stegawski, certify that my Petition for Rehearing
of the Certiorari is presented in good faith. I have plead
innocence from the beginning as results of my work were better
than expected benefiting patients I took care of, prevented
common complications and may also benefit people who suffer from
Fibromyalgia scioto.
Petition is not for the delay, it is rather to accelerate the
case as I can only gain from earlier adjudication.

Respectfully submitted,

Christopherl
egawski
i\J

July 2, 2021

IN THE SUPREME COURT OF THE UNITED STATES
CHRISTOPHER STEGAWSKI
Petitioner

)

Case No. 20-7438 •

AFFIDAVIT

I, Christopher Stegawski, petitioner pro se, under penalty
of perjury state that information in the attached
Petition for Certiorari Rehearing
and
Newly Discovered Evidence Motion: Fibromyalgia in Federal
Litigation
is true to the best of my knowledge and recollection
as it affects the facts of the case and is representation
of my medical knowledge and understanding of medicine.

ChristophStegawski

July 2, 2021

TABLE OF CONTENTS
PETITION FOR WRIT OF CERTIORARI REHEARING
Certifications, Affidavit, Proof of Service
Table of authorities cited

ii

Index

iii

Petition

1-15

Listing of Exhibits attached

iv

Appendix A: WRIT OF NEWLY DISCOVERED EVIDENCE MOTION
FIBROMYALGIA SCIOTO IN FEDERAL LITIGATION
Table of authorities cited
Motion

1-9

TABLE OF AUTHORITIES CITED
CASES
U.S. v MOORE 423 U.S. 122 (1975) --- page 9

STATUTES AND RULES
FRE - Rule 701, 702 --- page 8
8th Amendment --- page 8
§823

page 12

§829

Page 12

§841

page 12, 13

§2255

page 9

§3568(e), §3583(d)

page9

Case-in-chief documents
District Court
1:12-CR-00054-2 Doc # 141, Expert Dr. Gronbach Testimony --page 8, 9, 11, 12, 13
Doc # 130, Jury instructions ---- page 12
Doc # 167, Motion for Reconsideration --- page 6
Court of Appeals
15-4363 Doc # 50, Appeal Opinion --- page 9
District Court
1:19-CV-00428 Doc # 1, §2255 Motion --- page 9

INDEX
to Petition for Rehearing of Certiorari

Abbreviations:
EE - Government expert's errors
BZDZ - benzodiazepine
UC-A - undercover agent
RMSF - Rocky Mountains Spotted Fever
Page
1 - Discoveries
1 - Fibromyalgia scioto - etiology, mortality
1 - Fibromyalgia scioto - symptoms
2 - Fibromyalgia or Fibromyalgia scioto
2 - Specific diagnostic test - PCR, Achilles tendon, Sterno-cleidomastoid muscle signs, bacteria in blood smear, CDC testing
3 - Protocol to take patients off medications
4 - Bipolar disease or fibromyalgia symptoms
4 - Petitioner became ill
3 and 4 - Massive opiates use
5 - EE young patients
5 - Lack of probable cause
1° - trying to wean patients off medications
2° - reducing Xanax
3° - Xanax is off
4° - OARRS record
5° - only physician in the area reducing medications
6 - Rescue mission
6 - Ohio Medical Board 2013 notice to physicians
6 - Quantification of Xanax effect potentiation

Page
6 - Xanax used to suppress symptoms of chronic infection
7 - analogy between opiates and gasoline
7 - Law violations presented to the Jury
1° - Are patients addicts?
7 - 100% of patients become dependent [addicted]
8 - common understanding of addiction
2° - Expert Dr. Gronbach testimony
8 - EE did not see patients, presented
8 - EE mistakes on 31 out of 32 charts
9 - EE hearsay witness
9 - §3568 (e) and §3583 (d) warning
9 - EEexpert patients' urinalyses
9 - Hole in Overwhelming Evidence of Guilt
9 - Prosecutor's opinion "Bases on two failed urine tests
9 - "Clash of Cultures" on urine tests value
9 -.EE no ceiling of opiate action
10 - Ceiling of action in "tolerant" patients
10, - 5 and 10 mg dose for "novice" patient vs. 15 and 30 mg
for "tolerant" patient FDA approved for chronic pain treatment
11 - Half life of oxycodone and hydrocodone justifies 8 daily doses
11 - Pain is not constant through day and night
11 - Patient controlled anesthesia [and analgesia]
11 - Increase the potency - "One plus one is not two"
12 - In the presence of oxycodone Xanax becomes six times more potent
3° - §841 "Except as authorized"
12 - Standard of medical practice generally recognized and accepted
12 - EE Minimum standards of care out there Ohio has
13 - EE "highest most addicting combinations of medications"

Page
13 - EE expert created his own standard of care
13 - Physician's duty - keep "closed distribution"
13 - Clandestine act of illegal distribution
14 - Oxycodone MEF 6500, heroin MEF 1000
14 - Charge to the Jury on §841, §1306.04, §846
15 - "back to the future" - denial of "Except as authorized"
15 - Plea not guilty and actual innocence
15 - 3-D of a disaster
15 - War on Drugs
15 - Fibromyalgia scioto in Federal Courts, over 14,000 cases

IN THE SUPREME COURT OF THE UNITED STATES

CHRISTOPHER STEGAWSKI
Petitioner - Defendant

Case No 20-7438

PETITION FOR THE REHEARING
UNITED STATES OF AMERICA

OF THE CERTIORARI DENIAL

Respondent - Plaintiff
Christopher Stegawski, prisoner pro se is asking The Supreme
Court for granting certiorari.
Instant case is about discovery of a new disease similar to
RMSF-Rocky Mountains Spotted Fever and Lyme disease, but causing
chronic pain, which leads to massive opiates use called
"prescription opiates epidemic" and setting up protocol how to
discontinue medications used for chronic pain without major
complications.
1° - Fibromyalgia scioto, the name I gave the disease, is tick
transmitted, responds to some antibiotics, is acquired in childhood
or adulthood, lasts lifetime if not treated and not treated because
of it's unknown etiology.
Overdose mortality was 10,000 in 2010 when Petitioner practiced,
which went to 70.000 and 90,000 last year. Mortality comes from
treatment or it's abrupt denial.
2° - Fibromyalgia scioto,

beside muscle pain, has other symptoms

like headaches, memory impairment, slowing of speech, peripheral
neuralgia, skin pain, loss or thinning of hair, keloid formation,
insomnia, awakening every few hours from pain, possibly arrythmia
and heart failure, failed back or failed shoulder syndromes.
Especially worrisome is possibility of juvenile dementia.
-1-

Several Petitioner's patients were expelled from high school for
behavioral or mental problems. Several patients suffered from
anxiety, panic attacks and depression, for which BZDZs-benzodiazepines are used.
Are neurological symptoms and psychiatric bipolar-like
syndrome a result of brain development in the presence of chronic
brain infection? Petitioner thinks: Yes.
Chronic fatigue syndrome may be mild form of both fibromyalgia
and fibromyalgia scioto or any other chronic disease that causes
muscles pain.
New disease is not Fibromyalgia, which in 2010 was described
as generalized muscle pain with trigger points and back pain,
etiology established as autoimmune. Newer description is attached
as Exhibit # 2. By body systems involvement Fibromyalgia is:
fibro-my-algia; Fibromyalgia scioto is: cerebro-neuro-cutaneo-cardio-fibro-my-algia. Skeletal muscles and heart muscle have the
same tissue origin, what creates possibility of myocarditis and
heart failure. Etiology of Fibromyalgia scioto is tick transmitted
infectious disease.
There is no specific diagnostic test that indicates presence
of the disease. PCR test shall be developed like for COVID-19.
Petitioner described Achilles tendon sign
muscle sign

and sterno-cleido-mastoid

that are associated and probably diagnostic for the

disease. Significant diagnostic value has disappearance of symptoms
with few antibiotics and relapse a month later heralded by sternocleidomastoid muscle pain. MRI and CT scans don't show the disease.
Bacteria

probably can be found in blood smear.

CDC requested blood of five patients to test for causative
-2-

bacteria but desintegration of the clinic made it impossible..
During trial Petitioner selected charts of patients who had been
diagnosed with fibromyalgia, but those charts were retained by
defense counsel, who refused to mail it to Petitioner.
Beside solving the enigma of massive opiate use, Petitioner
established: Protocol how to take patients off pain medications
in which order and conducted it on his patients; there was no
overdose mortality, no conversion to heroin and fentanyl and
without going to illegal sources. Petitioner was only one physician
who in the- area in 2010 who did not have patients overdose mortality
as a result of modification and reduction of medications on
voluntary outpatient basis. It was initiated 4 years before State
Medical Board recommended reducing medications, but did not indicate
how to do it. Soma was discontinued when Petitioner read in PDR
that Soma is prodrug of Meprobamate, discontinued around 1967 because
of causing abuse and addiction. Soma should not have been released
or have restriction to prevent use with opiates and BZDZs - that
was action within authority and duty of DEA to notify FDA and
Medical Boards. Next was tapering Xanax from 6 mg daily to zero
or 0.25 mg 2t3 times daily. Through trial and error Petitioner
established monthly reduction that patients tolerate without side
effects. One major problem: at 3 mg daily few patients decided to
discontinue Xanax abruptly and 3 of them developed seizures.
The rule is to modify only one medication at the time what
makes it easier to identify cause of eventual problems.
It takes 8-10 months to reduce Xanax. During that time Oxycodone was kept below textbook daily dose for chronic pain of 240 mg
daily, for most patients at 180 mg daily.
-3-

Ohio rule requiring to see patients at least every 30 days
coincided with how long it takes to adjust to lower dose.
Bipolar disease is rare, about 1% of population, but many
patients when Xanax was reduced to below 1 mg daily complained
of anxiety, panic attacks. Petitioner sent about 50 patients in
one month to psychiatrist to confirm or exclude bipolar disease,
suggest another medication in place of BZDZ. It was after Labor
Day, time of increased ticks activity. Did patients have reinfection or annual activation of bacteria within human body?
Those questions were reconsidered months later and led to
conclusion that anxiety, panic attacks and depression are part
of the fibromyalgia.
Petitioner became ill

at that time. After summer fever with

back muscles pain reminding RMSF, intense body pain followed,
even shaking hands elicited acute arm and shoulder pain. By
December Petitioner developed chronic symptoms like patients were
reporting. Antibiotic test worked, it brought remission for one
month, confirmation of infectious disease.
During trial Petitioner got access to evidence and identified
17 charts for presentation, half of those of patients with
diagnosis of fibromyalgia. There was no time to present it to Jury.
Defense attorney had no time, was to attend next trial. Lack of
proper defense made trial unfair.
When Petitioner acquired Fibromyalgia scioto within first year
of working in the area, what probability had people raised there of
avoiding the infection? Most or all people living there were likely
infected. That is the cause of massive opiates use is Petitioner's
conclusion.•
-4-

Government expert Dr. Gronbach out of 32 presented patients'
charts, presented three of "young" patients

who did not have

changes in MRIs. He did not indicated their actual age, because
young has different meanings. One of MRIs was from 10 years ago,
what implies that he at very "young" age suffered from back pain.
Expert on even one patient did not raise possibility of fibromyalgia, probably most common cause of chronic pain in the area.
Lack of probable cause. Agents at the time of clinic raid
had knowledge and evidence of reduction of medications.
Evidence agents had was:
1° - In February 2010 agents interviewed departed employee, Kimberly
Ryan, who stated: "they are trying to wean patients off medications",
"people are taking [hydrocodone] oxycodone and alprazolam [Xanax]
and dying, referring to the drugs as a 'Bad cocktail'".
2° - In May 2010 agents reported, after meeting with Petitioner,
that "he is reducing Xanax", and that Soma is not prescribed.
3° - Two agents in the reports from clinic raid on November 18, 2010
wrote that Petitioner took patients off Xanax.

Agents knew that

there was no overdose mortality among his patients.
4° - Agents had access to OARRS (presciiption monitoring program)
which was showing no Soma prescribing and Xanax in doses 0.25 mg
1-3 tabs. daily or not prescribed. OARRS record

was investigated by

expert Dr. Gronbach in preparation for the raid (copies of his
report were not released with Brady and Jencks).
5° - Petitioner was the only one pain treating physician in the area
who lowered medications

and had no patients overdose mortality.

Associating lowering of medications with disappearance of mortality
was within capabilities of Dr. Gronbach, who became expert for trial;
-5-

as well as Pharmacy Board agents, Medical Board agent and
prosecutors who approved the raid. It was unreasonable to order
the raid. and closure of the clinic.
Reasonable was to call a meeting of physicians from the area
and have Petitioner present modification of treatment and results.
Petitioner was afraid to initiate contacts with other physicians,
because it could have been interpreted as conspiracy to promote
treatment. Just few months earlier another clinic, staffed by Dr.
Chong was raided.
Petitioner realized already at that time that his work became
rescue mission.

And presented it in Motion for Reconsideration of

Denial of Motion for New Trial.
Ohio Medical Board issued in 2013 notice to physicians to
lower medications, but did not indicate how to do it. Petitioner
was 4 years ahead of Medidal Board. Established order in which to
lower medications and rate of reduction of Xanax that is tolerated
by all patients. It is also in the. Motion for Reconsideration of
New Trial Denial that BZDZs had higher role in overdoses than
opiates; conclusion was that one prescription of.sedative/hypnotic
was more significant than all prescriptions of opiates.
Petitioner concluded that 1 mg daily of Xanax in the presence
of Oxycodone supressed panic attacks and anxiety like 6. mg of Xanax
taken without opiates. That is first quantification of Xanax effect
potentiation

by opiates; Xanax becomes 6 times stronger. It is like

giving 36 mg of Xanax daily as solo medication. Just PDR had no
warning to lower the dose 6 times in presence of Xanax. [May not
apply to other BZDZs and opiates combinations].
And next significant finding: Xanax was used to suppress
-6-

psychogenic symptoms in Fibromyalgia scioto caused by brain
abnormality induced by chronic infection transmitted by ticks.
Public knowledge promoted in newspapers was to blame opiates
for all problems of massive opiates use, but other substances and
factors seem to be ahead.
Petitioner sees analogy between opiates and gasoline. Gasoline
is very safe, but there are few restrictions how to use it.
Petitioner used opiates for about 30,000 patients without untoward
effects.

Law violations presented to the Jury
During trial three issues were presented by prosecution to
indicate illegality of Petitioner's practice:
10 - Witness Steele, lay witness, former patient, was asked by
prosecutor Oakley to indicate if former patients, indicated by
names are addicts. She testified by confirming: he/she is an addict.
Her designation as "addicts" was used as medical diagnosis of
addiction and also as legal finding of being an addict, who had
controlled substances [opiates] prescribed.
When 100% of patients

after 3 months of getting opiates [by

Ohio definition] develop- ,dependence

and has withdrawal when

abruptly deprived, lay people consider withdrawal as sign of
addiction. This way all chronic pain patients become addicts and
lay Jury (nurse and physician were removed in Jury selection) accepts
that every patient was an addict who suffers from addiction, what
makes every physician using opiates for chronic pain treatment
prescribing to addicts. Using this approach even government expert,
Dr. Gronbach is prescribing to addicts and can be prosecuted for
-7-

prescribing to addicts.
There is a difference between common understanding of addiction
and physician diagnosing addiction for legal purposes. There is a
difference between common meaning of addiction, addict and prescribing to addicts and legal finding of it. Jury was not instructed how
misleading Steele's testimony was. She gave expert testimony, but
admitted as lay witness.
Steele was not asked if patients listed by prosecutor had pain,
what kind of pain and the cause of it. There was no time distinction
between when patients were under Petitioner's care (2010) and their
current status at the trial time (2015). The patients who's names
were exposed in court were not available for adversarial confrontation or investigated pretrial by defense attorney. It was in
violation of Rule of Evidence 701 and 702, and 8th Amendment.
2° - Expert Dr. Gronbach testimony on Petitioner's clinical practice.
Petitioner personally had seen all patients, wrote prescriptions
in patients' presence, examined and skipped patients examinations
according to Ohio Periodic Review Law.
Dr. Gronbach did not see any of the patients, did not examine
any who's charts he used in testimony and testified that physicians
should'not make medical decisions without seeing patients.
He made several mistakes on review of 31 out of 32 charts he
presented, most coming from lack of knowledge on instant readout
urine tests, mainly didn't know that hydrocodone test is false
positive when patient uses oxycodone.
When asked (Expert testimony, Doc #141, page 31 id# 852):
"Are you familiar with the company AIT?" [American Institute of
Toxicology - urine tests manufacturer]; Dr. Gronbach answered:
-8-

"I've heard of them." (id page 32 id# 853).
This way Dr. Gronbach became hearsay witness.
§3568(e) and 3583(d) have warning about false positive urine
tests results, but apparently prosecutors were not familiar with
those sections. Experts errors found it's way to Direct Appeal
Opinion (Doc. #50, Case 15-4363,- page 7 id#2733):
"Dr.Gronbach explained how Stegawski ignored patients urinalyses,
which showed that some patients weren't taking the medications
that Stegawski had prescribed while others were taking painkillers
that Stegawski hadn't prescribed. The tests suggested that the
former were selling their prescriptions and the latter were buying
drugs on the street. Stegawski ignored these warning signs and
continued overprescribing painkillers."
District Court used page 7 and 8 of Appeal Opinion as
"Overwhelming Evidence of Guilt" and based his Denial of §2255
Motion on it. That made a big hole in denials of Appeal and
§2255 Motion and showed big hole in expert's knowledge of urine
tests used in monitoring of patients' compliance. It was also used
falsely to indicate that Petitioner did not pay attention to tests
results - in order to make chronic pain treatment case similar to
Moore (1975) case of treating people without pain with heroin.
Prosecutor Oakley gave opinion during trial: "Based on two
failed urine tests

he prescribed more oxycodone". But tests were

normal.
To Petitioner urine tests

have value

as psychological pressure

for patients not to use other controlled substances, mainly because
a risk of overdoses. To prosecutors urine tests have value to falsely
prosecute for chronic pain treatment. That is part of "Clash of
Cultures".
Opiates and BZDZs have no "ceiling of sedative and respiratory
depressant action" (Expert testimony Doc 141, page 7 id#828, Line 20,
-9-

line 24) "they don't have ...a ceiling effect;... the more you take,
the more it affects your body. A lot of [other] medications... ha[ve]
a ceiling effect: taking more of it tsn't going to produce more
effect. But that's not true for these particular, like narcotics.
They will continue to be more and more effective on the body. Q: And
depressing the need to breathe? A: Yes".
That is true only for "novice"patients, who did not have time
to develop "tolerance". For chronic users opiates become like a
different medications with developing "tolerance", ie. resistance.
Even 20.000 mg morphine daily gradually increased did not cause
(in a study on cancer patients) sedation and respiratory depression.
With longer opiate use "ceiling of action" appears, that what word
"tolerance" means. Patient tolerates better current dose and is able
to tolerate better dose increase. But when risk of overdose decreases,
the risk of underdose and deprivation appears. It seems that risk
of underdose is seven times higher than risk of overdose. This is the
reason to taper all "tolerant" patients. Like people develop "thirst
and hunger", patients develop "thirst and hunger of opiates" and
later withdrawal.
It was expert significant error in a testimony for chronic pain
treatment to explain only toxicity (lack of ceiling effect) in
"novice" patients and skip (or not know) "ceiling of toxicity" in
"tolerant" long term users. When 10 mg of oxycodone is heavy dose
for "novice" patient, a 30 mg dose for "tolerant" patient is easily
tolerated.
5 and 10 mg doses of oxycodone and hydrocodone are for "novice"
patients, whereas 15 mg and 50 mg doses are FDA approved for chronic
pain treatment.

-10-

H

most concerning ... is when we see two...of... immediate

release medications being used at the same time... maximum oxycodone
tablet ... 30 mg [and ] 15 mg". Dr. Gronbach is addressing popular
use of four tablet each. "four, five or six a day". (Expert
testimony, Doc 141, p. 8, Line 9 to 17).
Half life of oxycodone is 3.5 hours. That justifies giving
next dose every 3.5 hours, to keep blood level within 100% and
50% (half of peak level) giving blood level variability only
two times, standard recommended daily administration is 8 tablets.
If pain action last longer than 3.5- 4 hours it means that dose
is too high, what is associated with higher sedation, response
shall be decrease the dose, not extend time between doses what
gives higher blood level variability.
.Pain is not constant through day and night. Giving higher
and lower doses, gives patient ability to use lower dose for
time of lower pain. It also allows to take 6 daily doses of 30 mg.
It is ingenious combination, misunderstood by expert Gronbach and
leading to lower daily dose. It is similar to patient controlled
anesthesia-PCA, used in hospitals for iv. self administration.
It was not criticized because it is improper. It was trial strategy
to criticize whatever defendant was doing.
Q: when you mix that [opiate] with Xanax, does it exacerbate
or increase the potency

of each medication?", A: ...They potentiate

each other, make the effects stronger than by themselves", Q: So
one plus one does not equal two?" A: "that's correct" (expert testi:
mony Doc 141, page 8, id#929).
It is not correct. 1+1 is always two. Error is prosecutor mixing
number of medications with combined effect of both; potentiation
-11-

is measured with multiplication, not addition. Petitioner went
little further: established that in presence of oxycodone Xanax
becomes six times more potent and only 1 mg daily is needed to
control panic attacks and anxiety. 6 mg daily is dose for Xanax
alone. To achieve it it was necessary to slowly taper Xanax over
eight months.
3° - "Except as authorized" clause of §841 indicates that physician
authorized by §823, §829 by having DEA license, which is conditioned
on having medical state license is not restricted from distributing
opiates and other controlled substances to"end user", the patient.
Jury instructions (Doc. #130, 2/13/15, page 25/48, id.#568) indicate
that "usual course of professional practice" means that practitioner
has acted in accordance with a standard of medical practice generally
recognized and accepted in the United States (line 1-3). And "good
faith" means the honest exercise of good professional judgment...
[and] honest effort to treat patients in compliance with generally
recognized and accepted standards of medical practice. (Line 9-12).
"Recognized and accepted" eliminates practice below minimal standard
and maximum standard (better than average). Limitation of better than
average standard of practice is not in the best patients interests.
Expert Gronbach testified (Doc 141, 3/4/15. page 16/108, id#837):
(Line 3-8) "there is some basic medical standards. Ohio has a
document out there that is considered minimum standards of care...
That way it takes my opinion out of it, and I can try to be more
objective about is this colleague prescribing at least according
to the minimum standards of care".
Expert Gronbach made mistake, there is no "minimum standard"
document out there in Ohio. Minimum standard of care is established
in each reviewed case and voted by at least 6 board members physicians.
Expert, who testified without knowing urine tests interpretation
-12-

and made multiple errors, at the end of his testimony(ibid Page
103/108, id#924) states: "so from minimum standard of care, things
weren't met (Line 13)", "writing in high doses and in unthoughtful
combinations of medications. It was the highest most addicting
combinations of medication" - created his own standard of care,
because Medical Board did not established standard of care in this
case; did not notice that out of 3 medications implicated in
overdoses Petitioner eliminated 2; created own wrong standard:
"most addicting combinations of medications," because most addicting combination does not exist, each medication has it's separate
addicting properties and Petitioner by taking about 500 patients
off Xanax or to below 1 mg daily demonstrated that.Xanax is dose
dependent and not addictive. GronbaCh did not recognize that
3 young patients were suffering from fibromyalgia. Expert also
did not notice that patients were treated by other physicians before
and Petitioner was continuing and tapering medications started
years ago.
Coming back to §841: the main duty of physician is keep
"closed distribution", make sure that medications are for "end
user". To prosecute physician for drug trafficking it is necessary
to "prove beyond resonable doubt" that physician committed acts
to breach "close distribution", or commit clandestine act of illegal
distribution. Drug dealers don't keep records. All documented
activity and distribution shall be reviewed first by medical
inspectors, who like in military law, would make statement that it
is not part of their profession.
Only "lawful' acts" are protected by "Except as authorized".
But Jury did not convict Petitioner of that, Violation.
-13-

There was no ruling for the Jury to conclude: those acts constitute
violation of "except as authorized" clause of §841-Prohibited Acts A.
Somewhere, sometime "except as authorized" has disappeared. That
clause is like driving license, issued before accident, authorizing
to drive a car. Can driving license be revoked "because you had
an accident? - after an accident and being charged with driving
without a license."
If physician walks with a patient out of the office and sells
him heroin: that would be clearly act of drug trafficking. Penalty
for it would have been mg of heroin*1000 [MEF], but for prescribing
FDA approved medication - oxycodone would be oxycodone*6500.
Court CHARGE TO THE JURY (Doc 204, 05/09/16, page 17/122,
id# 5356) "Count 1 of the Indictment charges...4°conspired with...
30
°
to_ unlawfully distribute and dispense...not for a1legitimate
medical
2°
purpose and outside the scope of medical practice in violation of
Section 841(a)(1) of Title 21..."
1° and 2° are not part of §841 as presented by the Court, it is
0
part of §1306.04, 4 is part of §846; part 3° - not sure.
District Court has created a section that has parts of §841,. §846,
1306.04. Such cocktail is nonexisting law. Jury did not find Petitioner guilty of §846, §1306.04. This phantom law was formulated in
order to take away from the Jury ability to find Petitioner guilty
of §1306.04 only, because it is law for'medical practice, with
Court intention not to use penalties'indicated in §1306.04. Congress
intended in 1970 these penalties to be used.
In the lack of existing rules which acts are unlawful in §841,
it is Jury function to decide which acts of physician were unlawful
and then to apply §841 to those rules. It means when physician prac-14-

tised, he could not have known which acts will be found unlawful
and avoid those. This is "back to the future" approach to law,
whereas law has to clearly indicate which acts are unlawful to avoid.
Petitioner plead not guilty and actual innocence for the
reason: took care, of patients for years on medication, initiated
reduction according to medical rules, prevented overdose mortality
and conversion to heroin and fentanyl and discovered cause of
their pain and how to treat it without pain medications. When asked
about acceptance of responsibility for crimes, answered: physicians
accept responsibility when they start treating patient, [not when
they are begging for mercy], and all my patients did well.
When all around were 3-D signs of disaster: death, destruction
and despair, Petitioner's patients were lollygagging - prosecutors
claimed with unintended recognition.
When Petitioner reduced medications, achieving elimination of
overdose mortality; prosecutors described it as: junkies and addicts
-were coming to drug houses for their dope - actual words.
The War on Drugs

has turned into War on People, it was intended

to protect. Never in history infectious disease was contained by
arresting patients and their doctors. It will not be this time.
After reduction of medications, prevention of overdose mortality
and conversion to heroin, discovering the disease that causes chronic
pain and is cur- or treatable, found that geospatial effect of weather
radar map also shows RMSF, oxycodone use and tick habitat spread,
Petitioner also discovered over 14,000 cases of Fibromyalgia scioto
in Federal Court, what is described in Newly Discovered Evidence
Motion attached in Appendix.
Petitioner is not begging for mercy, but is asking for Justice.
-15-

